BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Pablo Javier
Aleman v. State of Maryland, was sent via Two Day
Service to the U.S. Supreme Court, and via Two Day
Service and e-mail service to the following parties
listed below, this 25th day of September, 2020:
Benjamin A. Harris
Deputy Chief Counsel
Criminal Appeals Division
Office of the Attorney General
200 Saint Paul Place, 17th Floor
Baltimore, Maryland 21202
(410) 576-6422
bharris@oag.state.md. us
Counsel for Respondent
Brian L. Zavin
Counsel of Record
Deputy Chief Attorney
Piedad Gomez
Assistant Public Defender
Office of the Public Defender
Appellate Division
6 Saint Paul Street, Suite 1302
Baltimore, Maryland 21202-1608
Work: (410) 767-8523
Facsimile: (410) 333-8801
brian.zavin@maryland.gov
piedad.gomez@maryland.gov
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 25, 2020.

Donna J. W
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

DaW:a::~~

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2'.J23

